CERTIFICATE OF SERVICE
NO. 19-259
Maron Pictures Ltd.
Petitioner(s)
v.
Sam Eigen, et al.
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the SAM
EIGEN BRIEF ET AL. IN OPPOSITION, by mailing three (3) true and correct copies of the same by USPS
Priority mail, postage prepaid for delivery to the following addresses:
Janice Ryan Mazur
Mazur & Mazur LLC
13465 Camino Canada
Suite 106, No.103
El Cajon, CA 92021
(800) 383-5002
appealslawyer@aol.com
Counsel for Maron Pictures Ltd.

Lucas DeDeus

October 7, 2019
SCP Tracking: Charnley-12121 Wilshire Blvd., Suite 600-Cover Orange

